UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
600 PENNSYLVANIA AVENUE, NW
WASHINGTON, D.C. 20580

Division of Enforcement
Bureau of Consumer Protection
Hampton Newsome
Attorney
Direct Dial:

(202)326-2889
Fax:

(202)326-2558
November 28,2011

Robert Babik, Director
Environment, Energy & Safety Policy
General Motors Company
300 Renaissance Center
Detroit, Michigan 48265-3000
Dear Mr. Babik:
This staff opinion letter responds to your October 28, 2011, request on behalf of General
Motors Company (GM). GM seeks to label its 2013 and later model dual-fueled vehicles with
the Environmental Protection Agency's (EPA's) new fuel economy label and to forego using the
FTC's alternative fueled vehicle (AFV) label on those vehicles. As explained below, the FTC
staff will not recommend enforcement action if GM uses the EPA label, including the vehicle's
driving range, in lieu ofthe FTC label for these vehicles.
Currently, the FTC and EPA both require a label for dual-fueled vehicles which operate
on both conventional gasoline and alternative fuel (e.g., E85).I Though both labels inform
consumers about vehicle fuel performance, the recently-revised EPA label contains more
vehicle-specific information than the FTC's. For example, the EPA label displays fuel economy
in both miles per gallon (city and highway) and gallons per 100 miles, estimated yearly fuel cost,
fuel savings or costs compared to an average vehicle, greenhouse gas iuformation, and smog
ratings. In addition, the EPA label allows, but does not require, the vehicle's driving range (i.e.,
miles traveled on a full tank) for gasoline and alternative fuel operation. Finally, the EPA label
directs consumers to wwwfueleconomy.gov which contains details about alternative fuels and
AFVs. By comparison, the FTC label, required by the Alternative Fuels Rule CRule"), displays
a vehicle's cruising (i.e., driving) range but does not provide any other vehicle-specific
information? Instead, it contains general consumer information about fuel type, operating cost,

ISee 16 C.F.R. Part 309 (FTC label) and 40 C.F.R. Part 600 (EPA label). Last summer,
EPA issued new labeling requirements for these vehicles. 76 Fed. Reg. 39478 (July 6, 2011).
216 C.F.R. Part 309. The Rule's full title is "Labeling Requirements for Alternative
Fuels and Alternative Fneled Vehicles."

Page 2
vehicle performance, energy security, and emissions. It also provides telephone numbers and
website addresses for additional information.
To avoid potential consumer confusion and reduce compliance costs, GM seeks to use
only the EPA label on its dual-fueled vehicles. It asks that the Commission, or the FTC staff,
forbear enforcement ofthe FTC label as long as GM uses the EPA label including tbe vehicle's
driving range. In GM's view, use of both labels could cause confusion because tbe EPA and
FTC labels present driving range information in different ways. The FTC requires two range
numbers: a lower number based on city fuel economy and an upper number based on highway
fuel economy (e.g., 246-378 miles on one tank). Conversely, tbe EPA rule requires a single
range number (e.g., 300 miles on one tank) based on tbe combined city-highway fuel economy
rating. Although the resulting numbers are similar and based on the same test procedures, GM is
concerned that the differences could confuse consumers. GM also explains that a single label
will save several hundred thousand dollars each model year in labeling-related costs.
GM argues tbat its request is consistent with the Commission's recent policy to forbear
enforcement of current FTC labeling requirements for electric vehicles given inconsistencies
between tbe driving range on EPA and FTC labels for those vehicles. 3 Because a similar
inconsistency exists between the EPA and FTC labels for 2013 dual-fueled models, GM requests
a similar approach.
In rcsponsc to your request, thc FTC staff will not recommend enforcement action ifGM
(or another manufacturer) uses the EPA fuel economy label, with driving range information, in
lieu of tbe FTC AFV label on dual-fueled vehicles. As your request explains, a single label will
avoid potential consumer confusion. The approach is also consistent with tbe Commission's
recent enforcement policy for electric vehicles. The Commission will provide final direction on
these issues when it completes its review of the Alternative Fuel Rule.
The views expressed in this letter are those of the staff assigned to enforce the
Commission's Alternative Fuels Rule. In accordance with Section 1.3(c) of the Commission's
Rules of Practice and Procedure, 16 C.F.R. ยง 1.3(c), this is a staff opinion only and has not been
reviewed or approved by the Commission or by an individual Commissioner. It is not binding
upon the Commission and is given without prejudice to the right of the Commission later to
rescind the advice and, when appropriate, to commence an enforcement proceeding. In
conformance with Section 1.4 of the Commission's Rules of Practice, 16 C.F.R. ยง 1.4, this letter
and GM's request, are being placed on the public record. If you have any further questions,
please contact me at (202) 326-2889.

c"t?).
Sin erely,
.~

/

Hampton Newsome
Attorney

3See http://www.jic.gov/opa/20JJ/05/aJr.shtm; and 76 Fed. Reg. 31467 (June 1,2011).

